              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Management Controls over Selected
Aspects of the Department of
Energy's Human Reliability Program




OAS-M-10-01                                 November 2009
                                 Department of Energy
                                 Washington, DC 20585

                                   November 13, 2009



MEMORANDUM FOR THE CHIEF HEALTH, SAFETY AND SECURITY OFFICER


FROM:                     Rickey R. Hass
                          Deputy Inspector General for Audit Services
                          Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management Controls over
                         Selected Aspects of the Department of Energy's Human
                         Reliability Program"

BACKGROUND

The Department of Energy and its Federal and contractor staff are responsible for some
of the Nation's most sensitive national security assets and programs. The Department
implemented the Human Reliability Program (Reliability Program) to ensure that
individuals who occupy positions affording access to certain nuclear materials, facilities,
and programs meet the highest standards of reliability and physical and mental suitability.
One aspect of the Reliability Program requires that employees who are part of the
program and who consume perception or behavior altering substances be restricted or
removed from performing sensitive duties until the effects of those substances have
abated.

Our inspection of The Human Reliability Program at Lawrence Livermore National
Laboratory (DOE/IG-0732, June 2006) disclosed weaknesses in the management of the
program at that site. In particular, we found problems at the Lawrence Livermore
National Laboratory (Livermore) with the selection methodology used in the drug and
alcohol testing process and medical and supervisory evaluations of Reliability Program
personnel. Our inspection also found that the Department-wide Reliability Program drug
testing program did not include categories of drugs that were commonly abused, such as
narcotic pain medications and hallucinogens. Management concurred with the report and
indicated that it had initiated corrective actions.

Based on the critical nature of the duties performed by Reliability Program certified
individuals, we initiated this audit to determine whether the Department's Reliability
Program was being administered in an effective manner.

RESULTS OF AUDIT

Even though sites were generally meeting basic Reliability Program requirements, our
audit identified inconsistencies in the application of program requirements throughout the
                                                2
Department complex. These inconsistencies involved alcohol and drug-related duty
restrictions and the certification of Reliability Program managers. While we did not
identify specific problem cases, in a worst case scenario, these inconsistencies increase
the risk that an impaired individual (sensory or behavioral) could be permitted to perform
critical duties. In particular, we noted that:

   •   At the Pantex Plant (Pantex), medical personnel applied a blanket 8-hour duty
       restriction rule for employees taking prescription anti-anxiety, sedating sleep-aids,
       and narcotic pain relievers that did not consider the specific half-life of the drug.
       In contrast, the Nevada Test Site (NTS) recommended that individuals taking
       these types of medications be removed from critical positions until the effect of
       the drug had completely dissipated.

   •   Regulations requiring abstinence from alcohol for specified periods prior to
       reporting for duty were not consistently applied. At Livermore, the 8-hour
       abstinence rule established by the Department was applied only to those with
       nuclear explosives duties. All other Reliability Program certified Livermore
       employees were permitted to consume alcohol within four hours of assuming
       duty. Many other sites did not apply the established 8-hour abstinence rule;
       however, all sites required that employees' breath alcohol concentration be below
       0.02 percent.

   •   The NTS did not require that Reliability Program management personnel be
       certified and subject to impairment related rules or work restrictions. Pantex, on
       the other hand, required that management personnel be certified and subject to
       Reliability Program requirements. According to the Department's Chief Medical
       Officer, this distinction is important in that management has the ultimate
       responsibility for determining which persons may or may not have access to
       nuclear explosives and Category I Special Nuclear Material.

We found that these inconsistencies occurred, in large part, because current Reliability
Program regulation does not specify the types/classes of prescription medications that
should disqualify an individual from performing Reliability Program duties. The
regulation also lacks specificity for the application of the 8-hour abstinence rule for the
consumption of alcohol prior to duty and whether Reliability Program management
officials should be certified. As a general principle, the Office of Inspector General
advocates a graded approach to security, one that recognizes the inherent vulnerabilities
related to the distinct operation of each site. We concluded, however, that because the
reliance on Reliability Program certified personnel is so significant, the application of
Reliability Program requirements identified during the audit should be addressed on a
uniform Departmental basis. Without additional specificity, the Department may be
unable to ensure that personnel security program requirements are consistently
implemented from site to site and that impaired employees are not serving in critical
positions.

We also noted that even though the Department conducted a review in response to our
previous report on drug testing weaknesses at Livermore, it concluded that adding
additional drugs to the screening process was neither cost-effective nor necessary. The
                                               3
ultimate decision not to screen for additional drugs may have contributed to delays in
discovering the recently identified steroid use by Reliability Program certified protective
force personnel at the Oak Ridge Complex (Oak Ridge). Our initial investigation of the
potential use of anabolic steroids by protective force personnel at Oak Ridge came to
light through anonymous sources and other law enforcement activities. In this case, the
failure to detect the use of these drugs resulted in individuals occupying sensitive
positions while using substances that are known to cause or contribute to aggressive
behavior. As a result, administrative action has been taken against six Oak Ridge based
protective force personnel. The actions taken have resulted in resignations, terminations,
and removal from the Reliability Program. To aid the Department in addressing similar
situations, we made recommendations designed to heighten awareness of reporting
responsibilities and increase the likelihood of detecting unreported drug use.

The Reliability Program is managed and directed by the Department's Office of
Departmental Personnel Security (Personnel Security). To its credit, Personnel Security
conducts monthly conference calls with field sites to discuss program updates related to
the Reliability Program. These discussions provide an opportunity for Reliability
Program management officials to share best practices and any concerns. Additionally,
Personnel Security is currently in the process of revising Departmental regulation for the
Reliability Program. In that regard, we believe that consideration of our
recommendations during the revision of the Department's policy presents Personnel
Security with an opportunity to address the issues outlined in this report. Both policy
makers and site-level managers should also consider whether adjustments to testing
regimens and additional training could help prevent or detect problems such as those
encountered at Oak Ridge.


MANAGEMENT REACTION

The Office of Health, Safety and Security and the National Nuclear Security
Administration generally concurred with the recommendations except for a portion
related to certification of Reliability Program management officials. Actions planned by
management are responsive to our recommendations. Management comments are more
fully discussed in the body of the report and are included in their entirety in Appendix 3.

Attachments

cc: Administrator, National Nuclear Security Administration
    Under Secretary of Energy
    Under Secretary for Science
    Chief of Staff
    Assistant Secretary for Environmental Management
    Assistant Secretary for Nuclear Energy
AUDIT REPORT ON MANAGEMENT CONTROLS OVER
SELECTED ASPECTS OF THE DEPARTMENT OF ENERGY’S
HUMAN RELIABILITY PROGRAM

TABLE OF
CONTENTS

Management of the Human Reliability Program

Details of Finding…………………………………………………………………..1

Recommendations and Comments…………………………………………………6


Appendices

1. Objective, Scope, and Methodology……………………………………………9

2. Prior Reports……………………………………………………………………11

3. Management Comments………………………………………………………..12
Department of Energy's Human Reliability Program

Management of the     Based on our survey work at two sites and our review of
Reliability           Human Reliability Program (Reliability Program)
Program               Implementation Plans from nine additional sites, we
                      determined that individuals who required Reliability Program
                      certification were enrolled in the process as necessary and were
                      being re-certified within established timeframes. However, we
                      noted inconsistencies in the implementation of the Reliability
                      Program at sites reviewed that, if not corrected, could lead to
                      issues within the program. Specifically, we identified
                      differences in the methodologies used by Department of
                      Energy (Department) sites to restrict Reliability Program
                      certified individuals from performing critical duties based on
                      the use of judgment impairing prescription medications. In
                      addition, we noted inconsistencies in the application of the
                      Department regulation regarding the consumption of alcohol
                      prior to reporting for duty. Further, we noted variations in site
                      requirements for the certification of Reliability Program
                      management positions.

                                            Medical Restrictions

                      During our review, we observed that Site Occupational
                      Medical Directors (SOMD) had demonstrated wide
                      interpretations regarding duty restrictions associated with the
                      use of certain prescription medications prior to performing
                      Reliability Program duties. At one site, according to the
                      Department's Chief Medical Officer (CMO), a restriction used
                      by the SOMD may not be sufficient to allow the effects of
                      certain medications to dissipate. Additionally, differences
                      between SOMDs in their approach to the use of these
                      prescription medications could lead to violations if employees
                      transfer between sites during periods of drug therapy.

                      To ensure that Reliability Program certified individuals are
                      mentally and physically able to perform their duties,
                      Department regulation requires Reliability Program certified
                      employees to immediately report any physical or mental
                      condition requiring medication or treatment to site
                      occupational medical officials so that an evaluation of any
                      potentially limiting medical conditions can be performed.
                      Department regulation permits SOMDs to assess the use of
                      prescription medications in relation to an individual's
                      Reliability Program duties and make a determination if a
                      reliability, safety, or security concern exists, and if so,




________________________________________________________________
Page 1                                           Details of Finding
                      recommend that an individual be restricted or removed from
                      duty status.

                      We found that SOMDs' approaches to restricting Reliability
                      Program individuals from performing assigned duties based on
                      prescription medications varied greatly between the sites we
                      reviewed. For example, medical officials at the Pantex Plant
                      (Pantex) allowed certain Reliability Program certified
                      individuals to take prescription anti-anxiety, sedating sleep-
                      aids, and narcotic pain relievers while off-duty as long as they
                      waited at least eight hours before reporting for duty.
                      According to the Department's CMO, however, using a blanket
                      eight hour rule for prescription medication has no scientific
                      basis since it does not consider the half-lives – how long it
                      takes for half of the medication to be eliminated from the
                      bloodstream – of each medication and may not allow the
                      effects of these drugs to dissipate.

                      In contrast to Pantex, the SOMD at the Nevada Test Site (NTS)
                      told us that he recommends that Reliability Program certified
                      individuals not be allowed to perform their duties for the
                      duration of the time that they are using prescription
                      medications such as narcotic pain medications or sleep-aids.
                      He imposed this standard because of his belief that these types
                      of medications may cause impairment and affect the judgment
                      or ability of the individual to safely and reliably perform
                      assigned duties. Even if the employee takes these types of
                      medications off-duty, the NTS SOMD and Psychologist
                      indicated that they recommend that the employee be removed
                      from their Reliability Program position until the drug has
                      completely worked its way through the individual's system.

                      Concerns related to these differences in approach are
                      exacerbated by the potential for Reliability Program certified
                      individuals to temporarily transfer to another site. According
                      to a site Reliability Program official, if a Reliability Program
                      certified individual is temporarily assigned to another site, they
                      remain under the policies of their permanent site in relation to
                      performing their duties while taking prescription medications.
                      The permanent site does not share medical information with
                      the officials at the temporary site. In this instance, an
                      individual may be conducting Reliability Program work while
                      using a prescription medication in violation of site-specific
                      policies.




________________________________________________________________
Page 2                                           Details of Finding
                                          Alcohol Use Approaches

                      We also noted varied applications of the Department's
                      abstinence rule for consuming alcohol prior to performing
                      Reliability Program duties. In particular, some Reliability
                      Program certified employees are not subject to the abstinence
                      rule. According to a Departmental Personnel Security
                      (Personnel Security) official and the Department's CMO, given
                      that their positions afford them access to sensitive facilities and
                      programs, they believe that all Reliability Program persons
                      should meet the highest standards of reliability and should be
                      subject to the abstinence rule.

                      Department regulation prohibits employees who perform
                      nuclear explosives duties and other designated employees from
                      consuming alcohol within eight hours preceding scheduled
                      work. In addition to the 8-hour abstinence rule, employees are
                      not allowed to perform their duties if found to have a breath
                      alcohol concentration of 0.02 percent or more. Reliability
                      Program employees who do not perform nuclear explosives
                      duties or are not designated by management are not subject to
                      the 8-hour abstinence rule but are subject to the 0.02 percent
                      breath alcohol concentration rule. The 8-hour abstinence rule
                      and the 0.02 percent breath alcohol content are designed to
                      ensure that employees report for duty alert and unimpaired.

                      While some sites applied these rules consistently, other sites'
                      Reliability Program Implementation Plans revealed wide
                      variability in their interpretations. The Office of Secure
                      Transportation was somewhat more restrictive, using a 10-hour
                      alcohol abstinence rule for individuals performing nuclear
                      explosives duties, while Lawrence Livermore National
                      Laboratory used an 8-hour restriction for all Reliability
                      Program certified employees with nuclear explosives duties
                      and a 4-hour alcohol restriction for all other Reliability
                      Program certified employees. The Reliability Program
                      Implementation Plans for the Y-12 National Security Complex
                      (Y-12), Oak Ridge National Laboratory, Savannah River Site,
                      Richland Operations Office, and Idaho National Laboratory
                      had no positions designated under the 8-hour alcohol
                      abstinence rule, but required all Reliability Program certified
                      employees to abide by the 0.02 percent breath alcohol
                      concentration requirement. A Personnel Security official as
                      well as the Department's CMO believed that regardless of the
                      Reliability Program employees' duties, based on the critical
                      nature of their work and the potential impact on national

________________________________________________________________
Page 3                                           Details of Finding
                      security, all Reliability Program employees should be subject
                      to the 8-hour rule to ensure that they are free from the
                      impairing effects of alcohol when reporting for duty.

                        Certification of Reliability Program Management Officials

                      We found that not all sites required Reliability Program
                      management officials to be Reliability Program certified.
                      Department regulation specifies positions that require
                      individuals to be certified and allows sites to designate other
                      positions critical to national security. According to the
                      Department's CMO, consistent certification of those who
                      manage Reliability Program individuals is important for proper
                      supervision and decision making for highly sensitive activities.

                      Under Department regulation, three categories of employees
                      must be Reliability Program certified: (1) those who access,
                      transport, or protect certain types of special nuclear material
                      (Category I SNM); (2) those who work with, protect, move or
                      have any other nuclear explosives duties, and, (3) those with
                      access to information concerning vulnerabilities in protective
                      systems when transporting nuclear explosives, nuclear devices,
                      selected components, or Category I SNM. Each site may
                      designate other positions for the Reliability Program that afford
                      the potential to significantly impact national security or cause
                      unacceptable damage, including Reliability Program
                      management.

                      During our review, we noted that site policies and procedures
                      varied on certification requirements for management officials
                      responsible for implementation of the Reliability Program. We
                      found that both Pantex and NTS had employees that fell into
                      the three categories above. However, Pantex designated
                      Reliability Program management officials as positions that
                      need to be certified, whereas NTS did not. The Department's
                      CMO indicated that certification is significant because
                      management has the ultimate responsibility for determining
                      which persons may have access to nuclear explosives and
                      Category I SNM.

Current Guidance      These inconsistencies occurred because the Department
Not Specific          lacks clear program guidance. In particular, the current
                      regulation does not specify the types/classes of prescription
                      medications that should disqualify an individual from
                      performing Reliability Program duties. It also lacks specificity
                      for the application of the 8-hour abstinence rule and whether

________________________________________________________________
Page 4                                           Details of Finding
                      Reliability Program management officials should be certified.
                      We coordinated with Personnel Security during our review and
                      made them aware of the inconsistencies we identified.

                      Current Department regulation does not identify classes of
                      prescription medications that would require individuals to be
                      removed, whether temporarily or permanently, from the
                      program. In addition, the regulation does not provide specific
                      guidance or direction concerning the use of work restrictions
                      for Reliability Program employees undergoing treatment with
                      judgment impairing medications. Instead, the regulation leaves
                      these decisions to each SOMD.

                      Our inspection of The Human Reliability Program at Lawrence
                      Livermore National Laboratory (DOE/IG-0732, June 2006)
                      noted that the Department-wide Reliability Program drug
                      testing program did not include categories of drugs that are
                      commonly abused. This report recommended that the
                      Department review the adequacy of the current Reliability
                      Program drug testing categories for identifying commonly
                      abused drugs, and update the Reliability Program drug testing
                      program, as necessary, to address additional drugs commonly
                      abused. The Department concurred with this recommendation
                      and commissioned a study to examine whether or not to expand
                      its drug testing program. The study concluded that testing for
                      additional medications was not warranted.

                      However, our recent investigative efforts at the Oak Ridge
                      Complex (Oak Ridge) revealed that there may be an added
                      benefit to expanding the Department's drug testing program.
                      Specifically, a recent unrelated, anonymous report lead to an
                      investigation that identified Reliability Program employees that
                      were using anabolic steroids, commonly abused drugs that
                      would not otherwise have been detected under the current drug
                      testing program. Certain of the identified individuals also
                      claimed that they were not aware of requirements to report the
                      use of drugs of this type. The discovery is significant because
                      steroid abuse can lead to serious side effects such as aggressive
                      behavior, mood swings, and depression which could impair an
                      individual's judgment and disqualify them from participation in
                      the Reliability Program. Given the potential side effects of
                      medications such as narcotic pain relievers, muscle relaxants
                      and steroids, a more comprehensive listing of medications




________________________________________________________________
Page 5                                           Details of Finding
                     requiring work restrictions could serve to ensure that
                     Reliability Program employees are performing their duties free
                     from the impairing effects of certain prescription medications
                     and other drugs.

                     Also, Department regulation does not provide specific
                     guidance as to which Reliability Program positions should be
                     designated and therefore subject to the 8-hour rule for the
                     consumption of alcohol prior to reporting for duty. It also does
                     not specify whether Reliability Program management positions
                     need to be Reliability Program certified. These decisions are at
                     the discretion of the site manager or other management
                     officials. Because all Reliability Program certified employees
                     have the ability to significantly impact national security, the
                     CMO and a Personnel Security official indicated that all
                     Reliability Program certified individuals should perform their
                     duties in a responsible manner and free from impairment.

Impact on the        Compromise of Departmental facilities, materials, or
Program              information could seriously harm workers and the general
                     public or adversely impact the security of the United States.
                     Without specific guidance, Personnel Security cannot meet its
                     mandate to ensure that personnel security program
                     requirements are consistently and effectively implemented
                     from site to site. The varying standard could, for example,
                     mistakenly permit those suffering from the lingering effects of
                     drugs or alcohol to perform critical functions which, if not
                     faithfully executed, could have disastrous effects.
                     Additionally, for the issues noted in this report, and the
                     significance of the duties of Reliability Program personnel, we
                     believe that the implementation of work restrictions should be
                     consistent between Departmental sites.

RECOMMENDATIONS      To address the inconsistencies identified in our report, we
                     recommend that the Director, Office of Departmental
                     Personnel Security take the following action:

                        1. Revise the Department's policy to clarify: (1) the
                           types/classes of prescription medications that warrant
                           removal, temporarily or permanently, from the
                           program, (2) which Reliability Program positions
                           should be designated under the 8-hour alcohol
                           abstinence rule, and, (3) whether Reliability Program
                           management officials must be certified; and,




________________________________________________________________
Page 6                              Recommendations and Comments
                        2. Given the circumstances at Oak Ridge, increase
                           awareness of reporting responsibilities and impact of
                           potential side effects for medications and/or commonly
                           abused substances such as anabolic steroids through
                           additional training and consider whether expanding the
                           Department's drug testing program would be beneficial.

                     Additionally, we recommend that the Director, Office of
                     Departmental Personnel Security in conjunction with the
                     Director, Office of Independent Oversight take the following
                     action:

                        3. Ensure that the program requirements revised based on
                           the recommendations above are consistently applied
                           across the Department's field sites with Reliability
                           Program certified employees.

MANAGEMENT           The Office of Health, Safety and Security (HSS) and the
REACTION             National Nuclear Security Administration (NNSA) generally
                     concurred with the recommendations except for part 3 of
                     Recommendation 1 regarding the certification of Reliability
                     Program management officials.

                     HSS concurred with parts 1 and 2 of Recommendation 1 and
                     with Recommendations 2 and 3. HSS identified actions it
                     plans to complete to address each of these recommendations,
                     including clarifying policies and guidance and establishing a
                     working group to evaluate whether the Department's drug
                     testing program should be expanded. In response to part 3 of
                     Recommendation 1, HSS indicated that it is in the process of
                     revising the policy governing the designation of Reliability
                     Program positions; however, it believed that a blanket policy
                     may not be appropriate.

                     NNSA concurred with the premise of Recommendation 1 and
                     stated that it plans to work with Personnel Security on revisions
                     to Department policy. However, NNSA did not agree that
                     Reliability Program management officials need to be included
                     in the program. NNSA indicated that there are no identified
                     significant risks associated with Reliability Program
                     management officials not being certified.

AUDITORS             We consider management's comments and planned
COMMENTS             actions to be responsive to our recommendations.
                     While the Office of Inspector General recognizes that the
                     designation of positions should be based on risk/vulnerability

________________________________________________________________
Page 7                              Recommendations and Comments
                     assessments, we believe that in a number of situations, the
                     certification of management officials can be vital to
                     implementation of the Reliability Program. As outlined in the
                     report, these individuals are ultimately responsible for
                     determining which individuals have access to nuclear
                     explosives and Category I SNM. We included the full text of
                     management's comments in Appendix 3.




________________________________________________________________
Page 8                              Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy's
                      (Department) Human Reliability Program (Reliability
                      Program) is being administered in an effective manner.

SCOPE                 We conducted the audit from December 2008 to September
                      2009 at Department of Energy Headquarters in Washington,
                      DC and Germantown, MD; the Pantex Plant (Pantex) in Carson
                      County, TX; and the Nevada Test Site (NTS) in Nye County,
                      NV. In addition, we collected information from nine additional
                      field site locations with Reliability Program certified
                      individuals.

METHODOLOGY           To accomplish the audit objective, we:

                           •   Reviewed applicable Federal and Departmental
                               regulations related to the Reliability Program and
                               workplace substance abuse programs;

                           •   Reviewed documentation such as site Reliability
                               Program Implementation Plans, Site Occupational
                               Medical Director annual reports, and site-level
                               procedures;

                           •   Performed sample test work of Reliability Program
                               certified individuals at Pantex and NTS to ensure that
                               individuals were properly enrolled and re-
                               certifications were within established timeframes;

                           •   Held discussions with officials from Pantex and NTS
                               regarding administration of the Reliability Program;
                               and,

                           •   Held discussions with Headquarters officials
                               regarding management of the Reliability Program and
                               programmatic responsibilities.


                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      We believe that the evidence obtained provides a reasonable
                      basis for our findings and conclusions based on our audit
                      objectives. Accordingly, the audit included reviews of
                      Department and regulatory policies and procedures related to

________________________________________________________________
Page 9                              Objective, Scope and Methodology
Appendix 1 (continued)

                      the Department's management of the Reliability Program. We
                      assessed performance measures in accordance with the
                      Government Performance and Results Act of 1993 and
                      concluded that the Department had not established
                      performance measures related to administration of the
                      Reliability Program. Because our review was limited, it would
                      not necessarily have disclosed all internal control deficiencies
                      that may have existed at the time of our audit. We conducted a
                      limited reliability assessment of computer-processed data
                      sufficient to achieve our audit objective.

                      Both the Department and NNSA waived an exit conference.




________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 2

                                     PRIOR REPORTS


Office of Inspector General Report

   •   The Human Reliability Program at Lawrence Livermore National Laboratory
       (DOE/IG-0732, June 2006). The purpose of the review was to determine if the
       Lawrence Livermore National Laboratory Human Reliability Program (Reliability
       Program) was administered in accordance with existing policy requirements. The
       review found that the Reliability Program was not administered in full accordance
       with applicable requirements. Specifically, the report noted that: (1) the
       methodology used to select individuals for drug and alcohol testing did not ensure
       that the tests were random; (2) some personnel who were called into work for
       unscheduled Reliability Program duties were not questioned about whether they had
       consumed alcohol; and, (3) Reliability Program medical reviews were not always as
       comprehensive as required by Department regulations.

Government Accountability Office Report

   •   Nuclear and Worker Safety: Actions Needed to Determine the Effectiveness of Safety
       Improvement Efforts at NNSA's Weapons Laboratories (GAO-08-73, October 2007).
       This report found that the three National Nuclear Security Administration (NNSA)
       weapons laboratories have experienced persistent safety problems – including
       accidents and violations of nuclear safety rules designed to protect workers and the
       public – stemming largely from long-standing management weaknesses. Since 2000,
       nearly 60 serious accidents or near misses have occurred at these laboratories. The
       report noted that factors contributing to these safety problems generally fell into three
       key areas: (1) a relatively lax attitude toward safety procedures; (2) weaknesses in
       identifying safety problems and taking appropriate corrective actions; and, (3)
       inadequate oversight by NNSA site offices. The report noted that NNSA and its
       contractors had been taking some steps to address weaknesses in these three key
       areas. However, NNSA faced two principal challenges in its continuing efforts to
       improve safety at the laboratories. First, the agency lacked a way to determine the
       effectiveness of its safety improvement efforts, in part because those efforts rarely
       incorporate outcome-based performance measures. Second, because of the long-
       standing safety problems at the laboratories, concerns had been raised over the
       agency's shift in its oversight approach to rely more heavily on contractors' own
       safety management controls.




________________________________________________________________
Page 11                                              Prior Reports
Appendix 3




________________________________________________________________
Page 12                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 13                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 14                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 15                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 16                                     Management Comments
                                                             IG Report No. OAS-M-10-01

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
